     U.S. Department of Labor
     Office of Inspector General
           Office of Audit




        Performance Audit of
   Columbus Urban League
 Welfare-to-Work Competitive Grant
            For the Period
January 4, 1999 through June 30, 2001




                            Audit Report No. 05-02-003-03-386
                            Date Issued: August 19, 2002
Columbus Urban League Welfare-to-Work Competitive Grant



                                       Table of Contents

                                                                                 Page

Acronyms                                                                            ii

Executive Summary                                                                  iii

Background                                                                         1

Objective, Scope and Methodology                                                   3

Findings and Recommendations                                                       5

        1.       Questioned Costs Totaling $139,516                                5
        2.       Participant MIS Was Not In Place                                  9
        3.       Procurement Policy Does Not Meet Minimum Federal Requirements    12

Schedules of Payroll Questioned Costs                                             14

Attachment A - Response to Draft Report                                           21




DOL-OIG Report No. 05-02-003-03-386                                                 i
Columbus Urban League Welfare-to-Work Competitive Grant



                                               Acronyms

AFDC             Aid to Families with Dependent Children

CFR              Code of Federal Regulations

CUL              Columbus Urban League

DOL              U.S. Department of Labor

ETA              Employment and Training Administration

FCDJFS           Franklin County Department of Jobs and Family Services

MIS              Management Information System

OMB              Office of Management and Budget

OIG              Office of Inspector General

QFSR             Quarterly Financial Status Report

TANF             Temporary Assistance for Needy Families

WtW              Welfare-to-Work




DOL-OIG Report No. 05-02-003-03-386                                       ii
Columbus Urban League Welfare-to-Work Competitive Grant



                                      Executive Summary

The Office of Inspector General (OIG) conducted a performance audit of the $3,149,984
Welfare-to-Work (WtW) Competitive Grant awarded to the Columbus Urban League (CUL).
Our audit objective was to determine whether CUL was in compliance with the WtW grant
agreement, applicable laws and regulations.

The CUL reported expenditures of $1,854,785 in support of 313 WtW participants for the period
January 4, 1999 through June 30, 2001. We tested a judgmental sample of staff salaries and
fringe benefits, as well as administrative, program, and service provider costs totaling $285,744.
We also tested 18 participants’ program eligibility and reviewed the grantee’s compliance with the
grant requirements and principal criteria. However, our selective testing was not designed to
express an opinion on CUL’s Quarterly Financial Status Report (QFSR).

We found:

C       Noncompliance with OMB Circular A-122 and grant agreement resulted in questioned
        costs totaling $139,516 because:
        <       salaries and fringe benefits, totaling $91,516, that were directly allocated between
                WtW and other programs are based on a predetermined rate; and
        <       expenditures of $48,000 for technology items were not pre-approved.
C       A participant MIS was not in place resulting in:
        <       enrollment of participants not accurately tracked; and
        <       70 percent and 30 percent expenditures not allocated properly.

We recommend that the Assistant Secretary for Employment and Training:

•       recover questioned costs totaling $139,516,
•       ensure the accuracy of the MIS tracking of enrolled participants, and
•       ensure that accurate participant ratios are used in allocating 70 percent and 30 percent
        expenditures.

CUL concurred with our findings and proceeded to take the following corrective actions:

C       requested approval for its costs allocation plan for salaries and fringe benefits, and
        purchases of technology items exceeding $5,000,
C       removed the unallowable charges from the WtW Program,
C       implemented a tracking and allocation system for the 70 percent and 30 percent
        expenditures, and



DOL-OIG Report No. 05-02-003-03-386                                                                iii
Columbus Urban League Welfare-to-Work Competitive Grant



C       revised its written procurement procedures to include the minimum requirements set forth
        by the regulation as stated in our draft report.

CUL has not received approval for its allocation plan and equipment purchases. However, we
were provided sufficient documentation in the grantee’s response to our draft report to reduce the
original questioned costs to $139,516. CUL’s response to the draft report is included as
Appendix A.




DOL-OIG Report No. 05-02-003-03-386                                                             iv
Columbus Urban League Welfare-to-Work Competitive Grant



                                           Background

                             The Personal Responsibility and Work Opportunity Reconciliation
          Objective of       Act of 1996 established the Temporary Assistance for Needy Families
       Welfare-to-Work       (TANF) program. The TANF provisions substantially changed the
                             nation’s welfare system from one in which cash assistance was
                             provided on an entitlement basis to a system in which the primary
focus is on moving welfare recipients to work and promoting family responsibility, accountability
and self-sufficiency. This is known as the “work first” objective.

Recognizing that individuals in TANF may need additional assistance to obtain lasting jobs and
become self-sufficient, the Balanced Budget Act of 1997 amended certain TANF provisions and
provided for Welfare-to-Work (WtW) grants to states and local communities for transitional
employment assistance which moves hard-to-employ TANF welfare recipients into unsubsidized
jobs and economic self-sufficiency.

The Welfare-to-Work and Child Support Amendments of 1999 allow grantees to effectively serve
both long-term welfare recipients and noncustodial parents of low-income children.

Of the $3 billion budgeted for the WtW program in Fiscal Years 1998 and 1999, $711.5 million
was designated for award through competitive grants to local communities.

                               On January 4, 1999, the Columbus Urban League (CUL) received
      Columbus Urban           a 30-month WtW competitive grant in the amount of $3,149,984.
    League’s Competitive       The period of performance was January 4, 1999 through June 30,
           Grant               2001. There were four grant modifications. The first three
                               modifications realigned the budget. The fourth modification,
                               dated June 12, 2001, realigned the budget, extended the grant
period through June 30, 2003, and made changes to its statements and conditions. No additional
funding was included in the grant modifications.

The purpose of the grant was to operate the “Day One” program to recruit, train, and place a
minimum of 480 Franklin County TANF participants in subsidized employment, concurrently
engaging them in career development strategies which will increase their earning potential and
economic stability. Of these 480 participants, 346 were to complete the career development
strategies segment and enter into unsubsidized employment. The goal for transition to
unsubsidized employment was later reduced from 346 participants to 228.




DOL-OIG Report No. 05-02-003-03-386                                                              1
Columbus Urban League Welfare-to-Work Competitive Grant



                         In addition to the provisions of the Balanced Budget Act of 1997, the
  Principal Criteria     U.S. Department of Labor (DOL) issued regulations found in 20 Code of
                         Federal Regulation (CFR) 645. Interim regulations were issued
                         November 18, 1997. Final Regulations were issued on January 11, 2001,
and became effective April 13, 2001. Also, on April 13, 2001, a new Interim Final Rule became
effective, implementing the Welfare-to-Work and Child Support Amendments of 1999. This
resulted in changes in the participant eligibility requirements for competitive grants, effective
January 1, 2000.

As a nonprofit entity, CUL is required to follow general administrative requirements contained in
Office of Management and Budget (OMB) Circular A-110, which is codified in DOL regulations
at 29 CFR 95, and OMB Circular A-122 requirements for determining the allowability of costs.

                       In September 1999, we issued a report on the results of a postaward
 Postaward Survey      survey of 12 second-round competitive grantees. CUL was included in
                       that review. During this audit, we followed up on our concerns identified
                       in the postaward survey. Based on our audit work, some concerns were
not adequately addressed by CUL and are noted in the findings section of this report.




DOL-OIG Report No. 05-02-003-03-386                                                             2
Columbus Urban League Welfare-to-Work Competitive Grant



                               Objective, Scope and Methodology

                           Our audit objective was to determine whether CUL was in compliance
      Objective            with the WtW grant agreement, applicable laws and regulations.

                           Our audit included financial and program activities that occurred from
   Audit Scope and         January 4, 1999 through June 30, 2001. Our review of management
    Methodology            controls was limited to financial management at the grantee level. We did
                           not audit performance measures at CUL.

As part of our audit planning, we conducted a vulnerability assessment of the financial
management, participant eligibility, cost allocation and procurement processes to determine if we
could limit the audit procedures in any of these areas. As a result of the vulnerability assessment,
judgmental sampling was chosen as our sampling methodology. Accordingly, we did not project
the results of our sample to the entire universe of financial transactions or participants. In
addition, our selective testing was not designed to express an opinion on CUL’s QFSR.

Of the $1,854,785 claimed costs reported on the QFSR as of June 30, 2001, we selected
50 transactions for audit totaling $285,744. These transactions included staff salaries and fringe
benefits, administrative expenditures, program costs, and service provider costs.

Of the 313 participants reported on the June 30, 2001, QFSR, we reviewed a list of WtW
participants provided by CUL and determined the universe of eligible WtW participants was 303.
We then created from this list two groups of participants; those enrolled before January 1, 2000,
and those enrolled from January 1, 2000 through June 30, 2001. This was necessary because of a
change in participant eligibility requirements, effective January 1, 2000. Using judgmental
sampling techniques, we selected and reviewed the files of 7 participants that enrolled before
January 1, 2000, and 11 participants enrolled from January 1, 2000 through June 30, 2001.

As part of our eligibility determination, we reviewed information provided by the Franklin County
Department of Jobs and Family Services (FCDJFS) to determine whether certain participants met
TANF and/or Aid to Families with Dependent Children (AFDC) cash assistance requirements as
of each participant’s WtW eligibility determination date.

During our audit, we reviewed compliance with the grant requirements and principal criteria cited
on page 2.

To accomplish the audit objective, we interviewed CUL officials. We also obtained and reviewed
grantee policies and procedures, participant files, accounting records, and source documentation,
such as contracts, service provider agreements, invoices and payrolls to support claimed costs.


DOL-OIG Report No. 05-02-003-03-386                                                                    3
Columbus Urban League Welfare-to-Work Competitive Grant



We conducted our audit in accordance with Government Auditing Standards for performance
audits, issued by the Comptroller General of the United States. We conducted fieldwork from
October 1, 2001 to November 16, 2001, at the office of CUL.




DOL-OIG Report No. 05-02-003-03-386                                                           4
Columbus Urban League Welfare-to-Work Competitive Grant



                                 Findings and Recommendations

                                 1. Questioned Costs Totaling $139,516

Of the $1,854,785 claimed costs reported on the QFSR as of June 30, 2001, we selected 50
transactions totaling $285,744. The results of the audit are presented herein.

                                          We found that CUL claimed $139,516 in expenditures that
                                          did not comply with the OMB Circular A-122 and its grant
      Unallowable expenditures            requirements. These costs consisted of staff salaries and
       resulted in $139,516 of            related payroll benefits that were based on predetermined
          questioned costs                rates, and equipment costs that lacked prior approval.
                                          Based on CUL’s response to our draft report, the
                                          following table outlines the questioned costs.

                       Cost Category              Costs Questioned
                       Payroll                              $ 79,144
                       Payroll Benefits                       12,372
                       Equipment                              48,000
                       Total                               $139,516

20 CFR Part 645.230(c)(2) states: “Non-profit organizations must determine allowability of costs
in accordance with OMB Circular A-122, ‘Cost Principles for Non-Profit Organizations.’”

Appropriately, as detailed below, the following costs were questioned based on the OMB Circular
A-122, CUL’s grant agreement and related regulations.

A.      Salaries of Staff Were Allocated Between WtW and Other Programs Based on a
        Predetermined Rate

CUL used predetermined rates to directly allocate the salary costs of staff who worked on WtW
and other programs or activities. However, CUL could not provide documentation on how these
rates were determined.




DOL-OIG Report No. 05-02-003-03-386                                                               5
Columbus Urban League Welfare-to-Work Competitive Grant



OMB Circular A-122, Attachment B, Paragraph 7.m states:

        . . . (1) Charges to awards for salaries and wages, whether treated as
        direct costs or indirect costs, will be based on documented payrolls
        approved by a responsible official(s) of the organization. The
        distribution of salaries and wages to awards must be supported by
        personnel activity reports, as prescribed in subparagraph (2), except
        when a substitute system has been approved in writing by the
        cognizant agency.

        . . . (2) Reports reflecting the distribution of activity of each employee
        must be maintained for all staff members (professionals and
        nonprofessionals) whose compensation is charged, in whole or in part,
        directly to awards. . . . Reports maintained by non-profit organizations
        to satisfy these requirements must meet the following standards:

                 (a) The reports must reflect an after-the-fact determination of
                 the actual activity of each employee. Budget estimates (i.e.
                 estimates determined before the services are performed) do
                 not qualify as support for charges to awards.

                 (b) Each report must account for the total activity for which
                 employees are compensated and which is required in fulfillment
                 of their obligations to the organization.

                 (c) The reports must be signed by the individual employee, or
                 by a responsible supervisory official having first hand knowledge
                 of the activities performed by the employee, that the distribution
                 of activity represents a reasonable estimate of the actual work
                 performed by the employee during the periods covered by the reports.

                 (d) The reports must be prepared at least monthly and must coincide
                 with one or more pay periods. . . .

CUL employees are paid semimonthly. For testing purposes, we analyzed the payroll for
March 31, 2001. Our analysis showed that four employees had their salaries directly allocated to
WtW and other programs or activities. However, the time sheets did not document the actual
time worked on WtW and other programs and activities.




DOL-OIG Report No. 05-02-003-03-386                                                                6
Columbus Urban League Welfare-to-Work Competitive Grant



Based on this analysis and the fact that CUL officials informed us that they used predetermined
rates, we determined the wages of these four employees from March 1, 1999 through June 30,
2001, from their available payroll records. The following table shows the salaries and related
fringe benefits. The referenced schedules, placed at the end of this report, provide the details on
the salaries.

 FISCAL        DEPARTMENT         WAGES         SCHEDULE       PAYROLL           PAYROLL        TOTAL
 YEAR          CODE                                            OVERHEAD          BENEFITS       WAGES &
                                                               RATE 1                           BENEFITS

 1999          CD1                      2,750       A          19.90%                    546           3,296

 2000          CD1                      1,611       B          12.65%                    204           1,815

 2000          160                      1,996       B          12.66%                    253           2,249

 2001          160                     49,548       C          15.62%                  7,739          57,287

 2001          210                     23,239       C          15.62%                  3,630          26,869

 TOTAL                                $79,144                                        $12,372         $91,516


The wages amounted to $79,144 and the fringe benefits totaled $12,372 (estimated based on the
percentage of fringe benefits charged compared to the personnel costs charged for each fiscal year
ending June 30). The grand total comes to $91,516, which we are questioning because the costs
were charged based on a predetermined rate that violates the provisions of OMB Circular A-122,
Attachment B, Paragraph 7.m.

B.      Nonpersonnel Costs Were Not in Compliance with Federal Regulations

We selected a judgmental sample of program and administrative transactions to test. As a result
of this testing, we are questioning equipment purchases totaling $48,000 based on the
requirements of CUL’s grant agreement and supporting regulations. The detail is as follows:




        1
         Payroll Overhead Rate = Total Payroll Taxes + Total Employee Benefits / Total Salaries and Wages =
         19.9% = [ 4,675 + 7,006 / 58,821]
         12.65% = [31,176 + 14,701 / 362,599]
         15.62% = [ 35,765 + 20,876 / 362,600]


DOL-OIG Report No. 05-02-003-03-386                                                                            7
Columbus Urban League Welfare-to-Work Competitive Grant



        Expenditures of Equipment Items Were Not Preapproved

        CUL did not comply with the terms of its grant agreement when it purchased two
        software packages. The software packages were priced at $24,500 and $23,500, and did
        not have prior approval from the grant officer. Part IV, Special Conditions, 2.Equipment
        of the grant agreement specifies that:

                 [a]wardees must receive prior approval from the DOL/ETAGrant
                 Officer for the purchase and/or lease of any equipment with a per
                 unit acquisition cost of $5,000 or more, and a useful life of more
                 than one year. This includes the purchase of ADP equipment.

        Furthermore, 29 CFR, Section 95.2(n) states in part:

                 Equipment means tangible non-expendable personal property . . .
                 having a useful life of more than one year and acquisition cost of
                 $5,000 or more per unit.

        A CUL official stated that CUL did not know that prior approval from ETA is necessary
        for purchases of equipment over $5,000, although it is a grant condition. Furthermore,
        CUL believes that software purchases do not fall under equipment cost. We believe that
        software packages meet the definition of ADP equipment and thus requires approval for
        any single item purchase exceeding $5,000. Accordingly, we are questioning $48,000
        which is the price for the software packages.

In summary, we question a total of $48,000 of equipment costs, as follows:




DOL-OIG Report No. 05-02-003-03-386                                                                8
Columbus Urban League Welfare-to-Work Competitive Grant



     EXPENSE ACCOUNT DESCRIPTION               AMOUNT                        VENDORS

 Cellular Telephone                                   0*    VoiceStream Wireless

 Day One Mugs                                         0*    Artina Promotion Products

 Hand Fans                                            0*    Matrix Media Services, Inc.

 Grocery Purchases                                    0*    Kroger

 55th Annual Dinner                                   0*    The College Fund/UNCF

 Equal Opportunity Day Dinner                         0*    Urban League of the Pikes Peak Regional, Inc.

 Installation and training on Adult Services       24,500   JML Solutions, LTD
 Module (Employment Case Management
 Training) for the Day One Program                 23,500   DRV Software, LLC

 Total                                         $   48,000
* Each amount has been reduced by a cumulative total of $19,722 as a result of additional data
provided by CUL officials subsequent to the release of the draft report.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training recover questioned
costs of $139,516.

CUL’s Response:

CUL provided a copy of the letter sent to the DOL/ETA requesting approval of the allocation
method used to charge salaries to the grant, and a copy of the letter requesting approval of the
software package used for the WtW program. CUL believes that the salary amount charged the
grant was reasonable. CUL also indicated that the organization did not realize that an approval
had to be obtained from the DOL/ETA Grant Officer for the purchase of software that costs
$5,000 or more.

For nonpersonnel cost, CUL submitted a schedule showing what telephone calls should be
charged to the grant. CUL also submitted a copy of the journal entry removing the $8,049 that
was incorrectly charged to the program for cell phone calls, dinner tickets, grocery purchases,
promotional items and memorabilia. CUL officials stated that they did not realize promotional
items and memorabilia could not be charged to the program.




DOL-OIG Report No. 05-02-003-03-386                                                                         9
Columbus Urban League Welfare-to-Work Competitive Grant



OIG’s Conclusion:

We concur with CUL’s removal of $8,049 in questioned costs from the WtW program. CUL
submitted sufficient documentation for the remaining $11,673. Therefore, we consider this
portion of the finding resolved and closed.

Since CUL has not received approval from DOL/ETA for either the allocation method for salaries
or the purchase of software, our recommendations on these findings remain unchanged. The
questioned costs for these expenses are $139,516.

                                2. Participant MIS Was Not in Place

A.       Enrollment of Participants Not Tracked

CUL did not have an MIS in place to track the enrollment of participants in the WtW Program
and identify participants’ “general eligibility” and 30 percent classifications, program activities and
placement into unsubsidized employment. CUL relied on client referrals and participant files to
provide this information. As a result, CUL lacked a system for accurately tracking and reporting
participants served in the WtW program.

20 CFR 645.240(d) states:

         Participant reports. Each grant recipient must submit participant reports to the
         Department. Participant data must be aggregate data, and, for most data elements,
         must be cumulative by fiscal year of appropriation.

                              Through March 31, 2001, the reported number of participants served
     CUL had no MIS in        was not based on the number of individuals determined eligible but on
          Place               the number of clients referred to the program. This practice caused
                              the number of participants reported as served on the QFSRs to be
                              overstated. For the June 30, 2001 QFSR, CUL still used client
referrals but only for individuals determined eligible, although the numbers included eligible
participants who were not served. Because we requested a list of participants who were
determined eligible from the inception of the grant until June 30, 2001, CUL manually compiled a
list which included the participants’ enrollment date, and their eligibility status. The table below
demonstrates the significant differences in the two QFSRs and the list provided during the audit.




DOL-OIG Report No. 05-02-003-03-386                                                                  10
Columbus Urban League Welfare-to-Work Competitive Grant



                                      Participants   Participants
                                      Served         Served
                                      Under the      Under the
                QFSR ending period    “General       “Other         Total Participants
                                      Eligibility”   Eligibility”
                                      Criteria       Criteria

                3/31/01               339 (75%)      116 (25%)      455

                6/30/01               296 (95%)      17 (5%)        313

                Per CUL list          252 (83%)      51 (17%)       303

We believe the participant list provided to us during the audit is more accurate than the participant
numbers reported on the QFSRs since they were based on the files of the participants. CUL
indicated they will maintain and update this list and use it for an MIS and for program reporting
purposes.

B.      Expenditures Not Allocated Properly Between Participants Served Under the
        “General Eligibility” Criteria (70 percent category) and the “Other Eligibility”
        Criteria (30 percent category)

As a result of not having accurate participant numbers, CUL’s participant ratios to allocate the
expenditures were also inaccurate. Based on information provided to us, the expenditures
reported on the June 30, 2001 QFSR were understated for the “general eligibility” criteria and
overstated for the “other eligibility” criteria. On the June 30, 2001 QFSR, CUL reported
$1,854,785 in expenditures. Only $262,749 were directly charged to the “general eligibility” or
“other eligibility” categories, the remaining expenditures of $1,592,036 were allocated between
the two categories. The $1,592,036 were not allocated properly among the “general eligibility”
and “other eligibility” expenditures.

20 CFR 645.211 states:

        An operating entity . . . may spend not more than 30 percent of the WtW funds
        allotted to or awarded to the operating entity to assist individuals who meet the
        “other eligibles” eligibility requirements . . . . The remaining funds allotted to or
        awarded to the operating entity are to be spent to benefit individuals who meet the
        “general eligibility” and/or “noncustodial parents” eligibility requirements . . .

Prior to ETA’s financial management review of the CUL’s WtW grant in August 2000, CUL had
no system in place to allocate “general eligibility” and “other eligibility” expenditures. Instead,
CUL reported the breakdown of “general eligibility” and “other eligibility” expenditures on the

DOL-OIG Report No. 05-02-003-03-386                                                                11
Columbus Urban League Welfare-to-Work Competitive Grant



QFSRs by multiplying the total expenditures to date by the required “general eligibility” minimum
rate and “other eligibility” maximum rate.

A report was issued in February 2001 presenting a finding concerning the allocation of “general
eligibility” and “other eligibility” expenditures, as a result of a review conducted by ETA’s
financial management team. The report stated the accounting records along with the time sheets
used by the WtW program did not identify established methods in collecting accurate data to
account for “general eligibility” and “other eligibility” expenditures.

CUL responded in March 2001 by providing a corrective action plan. This plan stated that case
managers would, on a daily basis, account for their time between “general eligibility” and “other
eligibility” participants. The business development specialists would use a formula method
because their time is dedicated to the number of participants enrolled each cycle. However, the
grantee never implemented this plan.

Instead, CUL decided to allocate the “general eligibility” and “other eligibility” expenditures by its
participant ratios for the entire grant period each time the QFSR was prepared. This method
seems to be equitable in allocating the expenditures, since either type of participant is eligible for
the same services as long as the participant ratio stays fairly consistent from quarter to quarter.

This allocation method was used for the QFSR ending June 30, 2001. However, CUL used a 75
percent ratio for “general eligibility” participants and 25 percent ratio for “other eligibility”
participants based on the ratio as of December 31, 2000, which was based on client referrals
rather than persons determined eligible.

At our request, CUL manually compiled a list of participants providing the enrollment dates and
the “general eligibility” and “other eligibility” status. Of the 303 participants, 252 (83 percent)
were enrolled under the “general eligibility” criteria and 51 (17 percent) under the “other
eligibility”criteria. These totals are the most accurate since the list was based on the files of the
participants and should have been used for allocating the “general eligibility” and “other
eligibility” pooled expenditures for June 30, 2001.

Based on the participant listing provided to us, “general eligibility” expenditures have been
understated and “other eligibility” expenditures have been overstated. CUL agreed that the
participant ratio used was inaccurate. However, CUL now has a list of participants which will be
constantly updated in order to provide an accurate participant ratio to be applied when allocating
“general eligibility” and “other eligibility” expenditures beginning with the September 30, 2001
QFSR. The ratio to be used, based on the participant listing as of September 30, 2001, is
83 percent, “general eligibility” and 17 percent, “other eligibility”.



DOL-OIG Report No. 05-02-003-03-386                                                                     12
Columbus Urban League Welfare-to-Work Competitive Grant



Recommendations:

We recommend that the Assistant Secretary for Employment and Training direct CUL to ensure
the accuracy of the participant list and update it timely. The participant list would be used as
CUL’s MIS for tracking participants’ enrollment dates, the “general eligibility” and “other
eligibility” classifications, and their activities in the WtW Program. This list should assist CUL in
presenting accurate participant data on the QFSR.

We also recommend that the Assistant Secretary for Employment and Training direct CUL to
ensure that accurate participant ratios are used to allocate expenditures for the “general eligibility”
and “other eligibility” categories on the QFSRs.

CUL’s Response:

CUL stated that it implemented a system in April 2001 called the Internal Consolidated
Information Tracking System which tracks Day One (WtW) participants for the “general
eligibility” and “other eligibility” categories. CUL stated that accurate participant ratios of 83.7
percent and 16.3 percent are now used to allocate expenditures on the QFSR ending September
2001. The percentages will be updated each quarter.

OIG’s Conclusion:

CUL must produce a list of WtW participants tracked by, at a minimum, the “general eligibility”
and “other eligibility” classifications that are produced from its MIS, in order to resolve the matter
of CUL’s MIS capability. Also, we concur and resolve the matter of the use of accurate
participant’s ratios for the QFSRs. This matter will remain open pending the review of the QFSR
submitted to ETA.




DOL-OIG Report No. 05-02-003-03-386                                                                    13
Columbus Urban League Welfare-to-Work Competitive Grant



            3. Procurement Policy Does Not Meet Minimum Federal Requirements

Our review of CUL’s written procurement procedures disclosed that the procedures did not
contain the minimum requirements dictated by the regulations.

Recommendation:

We recommend that the Assistant Secretary for Employment and Training direct CUL to develop
written procurement procedures that provide detailed instructions and meet Federal requirements.

CUL’s Response:

CUL provided a copy of its revised written procurement procedures.

OIG’s Conclusion:

The written procurement procedures provided by CUL include the minimum requirements based
on the regulation. We consider CUL’s written procurement procedures sufficient to resolve and
close this finding.




DOL-OIG Report No. 05-02-003-03-386                                                           14
Columbus Urban League Welfare-to-Work Competitive Grant




                    Schedules of Payroll Questioned Costs




DOL-OIG Report No. 05-02-003-03-386                         15
Columbus Urban League Welfare-to-Work Competitive Grant

                                                                                       Schedule A

                              COLUMBUS URBAN LEAGUE
                WELFARE-TO-WORK COMPETITIVE GRANT NO. Y-7209-9-00-81-60
                           Computation of Questioned Payroll Costs
                                    For the Pay Periods
                            March 1, 1999 through June 30,1999



                                     **/****              ** PERCENT       **** AMOUNT
 PAY PERIOD          EMPLOYEE        GROSS WAGES          ALLOCATION CD1   CHARGED CD1
 03/1-3/15/99        Person No. 1    1,375.00             25.00%           $ 343.75
 3/16-3/30/99        Person No. 1    1,375.00             25.00%             343.75
 4/1-4/15/99         Person No. 1    1,375.00             25.00%             343.75
 04/16-4/30/99       Person No. 1    1,375.00             25.00%             343.75
 05/1-5/15/99        Person No. 1    1,375.00             25.00%             343.75
 05/16-5/31/99       Person No. 1    1,375.00             25.00%             343.75
 06/1-6/15/99        Person No. 1    1,375.00             25.00%             343.75 (A)
 06/16-6/30/99       Person No. 1    1,375.00             25.00%             343.75
 TOTAL                                                                     $2,750.00

CD1 = Day One - Administration


** Source: ADP Master Control
**** Source: Labor Distribution Report
(A) = Unable to Locate Labor Distribution Report - Computed Amount




                                                                                               16
Columbus Urban League Welfare-to-Work Competitive Grant



                                                                                                                  Schedule B
                               COLUMBUS URBAN LEAGUE
                 WELFARE-TO-WORK COMPETITIVE GRANT NO. Y-7209-9-00-81-60
                            Computation of Questioned Payroll Costs
                                      For the Pay Periods
                              July 1, 1999 through June 30, 2000

                                          **/****         PERCENT ALLOCATED **               AMOUNT CHARGED ****
                                          GROSS           TO DEPARTMENT                      TO DEPARTMENT
 PAY PERIOD*          EMPLOYEE            WAGES
                                                               CD1               160             CD1                160

 07/1-7/15/99         Person No. 1        1,541.66        9.50%                                    146.46

 07/16-7/3199         Person No. 1        1,541.66        9.50%                                    146.46
 08/1-8/15/99         Person No. 1        1,541.66        9.50%                                    146.46
 08/16-8/31/99        Person No. 1        1,541.66        9.50%                                    146.46

 09/1-9/15/99         Person No. 1        1,541.66        9.50%                                    146.46
 09/16-9/30/99        Person No. 1        1,541.66        9.50%                                    146.46

 10/1-10/15/99        Person No. 1        1,541.66        9.50%                                    146.46
 10/16-10/31/99       Person No. 1        1,541.66        9.50%                                    146.46
 11/1-11/15/99        Person No. 1        1,541.66        9.50%                                    146.46

 11/16-11/30/99       Person No. 1        1,541.66        9.50%                                    146.46
 12/1-12/15/99        Person No. 1        1,541.66        9.50%                                    146.46
 02/16-2/29/00        Person No. 1        1,541.66                          9.50%                                     146.46

 03/1-3/15/00         Person No. 1        1,625.00                          14.14%                                241.56 (A)
 03/16-3/31/00        Person No. 1        1,625.00                          14.14%                                    229.78

 04/1-4/15/00         Person No. 1        1,625.00                          14.14%                                    229.78

 04/16-4/30/00        Person No. 1        1,625.00                          14.14%                                    229.78
 05/1-5/15/00         Person No. 1        1,625.00                          14.14%                                    229.78

 05/16-5/31/00        Person No. 1        1,625.00                          14.14%                                    229.78

 06/1-6/15/00         Person No. 1        1,625.00                          14.14%                                    229.78
 06/16-6/30/00        Person No. 1        1,625.00                          14.14%                                    229.78

 TOTAL FOR YEAR 2000                                                                         $ 1,611.06       $    1,996.48
(A) = Actual percentage used was 14.87% * = Payroll documents for pay periods ending 12/30/99 through 2/15/00 were not provided
** = SOURCE = ADP Master Control (Payroll)           **** = SOURCE = Labor Distribution Report


DOL-OIG Report No. 05-02-003-03-386                                                                                          17
Columbus Urban League Welfare-to-Work Competitive Grant

                                                                                      Schedule C

                                 COLUMBUS URBAN LEAGUE
                   WELFARE-TO-WORK COMPETITIVE GRANT NO. Y-7209-9-00-81-60
                              Computation of Questioned Payroll Costs
                                           For the Period
                                July 1, 2000 through June 30, 2001

                                      **/****    ** PERCENT ALLOCATED   **** AMOUNT CHARGED TO
                                      GROSS      TO DEPARTMENT          DEPARTMENT
 PAY PERIOD         EMPLOYEE          WAGES
                                                 No. 160    No. 210     No. 160     No. 210

 07/1-7/15/00       Person No. 1      2,333.33   16.08%                 375.20

 07/16-7/31/00      Person No. 1      2,333.33   16.08%                 375.20

 08/1-8/15/00       Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 1      2,333.33   16.08%                 375.20

 08/16-8/31/00      Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 1      2,333.33   16.08%                 375.20

 09/1-9/15/00       Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 1      2,333.33   16.08%                 375.20

 09/16-9/30/00      Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 3      1,416.67              85.30%                  1208.42

                    Person No. 1      2,333.33   16.08%                 375.20

                    Person No. 4      1,750.00   88.10%                 1,541.66

 10/1-10/15/00      Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 3      1,416.67              85.30%                  1208.42

                    Person No. 1      2,333.33   16.08%                 375.20

                    Person No. 4      1,750.00   88.10%                 1,541.75

 10/16-10/31/00     Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 3      1,416.67              85.30%                  1208.42

                    Person No. 1      2,333.33   16.08%                 375.20

                    Person No. 4      1,750.00   88.10%                 1,541.75

 11/1-11/15/00      Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 3      1,416.67              85.30%                  1208.42

                    Person No. 1      2,333.33   16.08%                 375.20

                    Person No. 4      1,750.00   88.10%                 1,541.75


DOL-OIG Report No. 05-02-003-03-386                                                           18
Columbus Urban League Welfare-to-Work Competitive Grant

                                                                                      Schedule C

                                 COLUMBUS URBAN LEAGUE
                   WELFARE-TO-WORK COMPETITIVE GRANT NO. Y-7209-9-00-81-60
                              Computation of Questioned Payroll Costs
                                           For the Period
                                July 1, 2000 through June 30, 2001

                                      **/****    ** PERCENT ALLOCATED   **** AMOUNT CHARGED TO
                                      GROSS      TO DEPARTMENT          DEPARTMENT
 PAY PERIOD         EMPLOYEE          WAGES
                                                 No. 160    No. 210     No. 160     No. 210

 11/16-11/30/00     Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 3      1,416.67              85.30%                  1208.42

                    Person No. 1      2,333.33   16.08%                 375.20

                    Person No. 4      1,750.00   88.10%                 1,541.75

 12/1-12/15/00      Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 3      1,416.67              85.30%                  1208.42

                    Person No. 1      2,333.33   16.08%                 375.20

                    Person No. 4      1,750.00   88.10%                 1,541.75

 12/16-12/31/00     Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 3      1,416.67              85.30%                  1,208.42

                    Person No. 1      2,333.33   16.08%                 375.20

                    Person No. 4      1,750.00   88.10%                 1541.75

 01/1-1/15/01       Person No. 2      1,750.00   88.10%                 625.00

                    Person No. 3      1,416.67              85.30%                  1,208.42

                    Person No. 1      2,333.33   16.08%                 375.20

                    Person No. 4      1,750.00   88.10%                 1541.75

 01/16-1/31/01      Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 3      1,416.67              85.30%                  1,208.42

                    Person No. 1      2,333.33   16.08%                 375.20

                    Person No. 4      1,750.00   88.10%                 1541.75

 02/1-2/15/01       Person No. 2      1,250.00   50.00%                 625.00

                    Person No. 3      1,416.67              85.30%                  1,208.42

                    Person No. 1      2,333.33   16.08%                 375.20




DOL-OIG Report No. 05-02-003-03-386                                                            19
Columbus Urban League Welfare-to-Work Competitive Grant

                                                                                            Schedule C

                                 COLUMBUS URBAN LEAGUE
                   WELFARE-TO-WORK COMPETITIVE GRANT NO. Y-7209-9-00-81-60
                              Computation of Questioned Payroll Costs
                                           For the Period
                                July 1, 2000 through June 30, 2001

                                      **/****    ** PERCENT ALLOCATED   **** AMOUNT CHARGED TO
                                      GROSS      TO DEPARTMENT          DEPARTMENT
 PAY PERIOD         EMPLOYEE          WAGES
                                                 No. 160    No. 210     No. 160            No. 210

                    Person No. 4      1,750.00   88.10%                 1541.75

 02/16-2/28/01      Person No. 2      1,250.00   50.00%                           625.00

                    Person No. 3      1,416.67              85.30%                              1,208.42

                    Person No. 1      2,333.33   16.08%                           375.20

                    Person No. 4      1,750.00   88.10%                       1,541.75

 03/1-3/15/01       Person No. 2      1,250.00   50.00%                           625.00

                    Person No. 3      1,416.67              85.30%                              1,208.42

                    Person No. 1      2,333.33   16.08%                           375.20

                    Person No. 4      1,750.00   88.10%                       1,541.75

 03/16-3/31/01      Person No. 2      1,250.00   50.00%                           625.00

                    Person No. 3      1,416.67              85.30%                              1,208.42

                    Person No. 1      2,333.33   16.08%                           375.20

                    Person No. 4      1,750.00   88.10%                       1,541.75

 04/1-4/15/01       Person No. 2      1,250.00   50.00%                           625.00

                    Person No. 3      1,416.67              85.30%                              1,208.42

                    Person No. 1      2,333.33   16.08%                           375.20

                    Person No. 4      1,750.00   88.10%                       1,541.75

 04/16-4/30/01      Person No. 2      1,250.00   50.00%                           625.00

                    Person No. 3      1,416.67              85.30%                              1,208.42

                    Person No. 1      2,333.33   16.08%                           375.20

                    Person No. 4      1,750.00   88.10%                       1,541.75

 05/1-5/15/01       Person No. 3      1,416.67              85.30%                              1,208.42

                    Person No. 1      2,333.33   16.08%                           375.20




DOL-OIG Report No. 05-02-003-03-386                                                                    20
Columbus Urban League Welfare-to-Work Competitive Grant

                                                                                            Schedule C

                                 COLUMBUS URBAN LEAGUE
                   WELFARE-TO-WORK COMPETITIVE GRANT NO. Y-7209-9-00-81-60
                              Computation of Questioned Payroll Costs
                                           For the Period
                                July 1, 2000 through June 30, 2001




                                      **/****    ** PERCENT ALLOCATED   **** AMOUNT CHARGED TO
                                      GROSS      TO DEPARTMENT          DEPARTMENT
 PAY PERIOD         EMPLOYEE          WAGES
                                                 No. 160    No. 210     No. 160            No. 210

                    Person No. 4      1,750.00   88.10%                       1,541.75

 05/16-5/31/01      Person No. 3      1,416.67              85.30%                              1,208.42

                    Person No. 1      2,333.33   16.08%                           375.20

                    Person No. 4      1,750.00   88.10%                       1,541.75

 06/1-6/15/01       Person No. 3      1,416.67              85.30%                              1,208.42

                    Person No. 1      2,333.33   88.10%                           375.20

                    Person No. 4      1,750.00   16.08%                       1,541.75

 06/16-6/30/01      Person No. 3      1,743.67              85.30%                              1,487.35

                    Person No. 1      2,333.33   16.08%                           375.20

                    Person No. 4      1,750.00   88.10%                       1,541.75

 TOTAL                                                                       49,547.96         23,238.91
** = SOURCE= ADP Master Control (Payroll)
****= SOURCE= Labor Distribution Report
DEPARTMENT 160 = DAY ONE
DEPARTMENT 210 =DAY ONE - Business Development Specialist
SOURCE: ADP Master Control (Payroll) and Labor Distribution.




DOL-OIG Report No. 05-02-003-03-386                                                                    21
DOL-OIG Report No. 05-02-003-03-386   22
DOL-OIG Report No. 05-02-003-03-386   23
DOL-OIG Report No. 05-02-003-03-386   24
